tes
Supreme Court of the United Sta
Certificate of Compliance
Re:

isten
State of Wisconsin v. Mitchell L. Chr
Case No.

length of the Petition
I hereby certify that the length of the
compliance with Supreme
for Writ of Certiorari is 21 pages, in
tions of this brief excluded
Court Rule 33.2(b), excepting the por
by Supreme Court Rule 33.1(d)
Dated: Wednesday, September 29, 2021
Respectfully submitted,

Steven Roy
Counsel of Record
1310 O'Keeffe Ave. #315
Sun Prairie, WI 53590
608.571.4732
Steven@StevenRoyLaw.com

